CERTIFICATE OF WORD COUNT
NO. 21-134
Jesus Vasquez, Jr. And Penney Leigh Vasquez,
Petitioners,
v.
Wilmington Savings Fund Society, FSB, as Trustee of Stanwich Mortgage Trust F,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the WILMINGTON SAVINGS
FUND SOCIETY, FSB, AS TRUSTEE OF STANWICH MORTGAGE TRUST F BRIEF IN OPPOSITION contains
2892 words, including the parts of the brief that are required or exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 1, 2021

SCP Tracking: Mansfield-50 North Laura Street, Ste. 3900-Cover Orange

